Supreme Court, U.S.
FILED

WAIVER

JAN 1 3 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-833

Philippe Buhannic

v.

New York Appellate Division, First Judicial Department

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

0 Please enter my appearance as Counsel of Record for all respondents.
J There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

TradingScreen Inc., Pierre Schroeder, Piero Grandi

11 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

Or/ 41014Acnr

Signature
Date.

January 13, 2020

(Type or print) Name

46'

John M. Vassos
El Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Morgan, Lewis & Bockius LLP

Address

101 Park Avenue

City & State
Phone

New York, New York

(212) 309-6000

Zip

10178

Email john.vassos@morganlewis.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQ1

IRITECEIVED

CC: Philippe Buhannic

JAN 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

